Farm Credit Administration                                    Office of Inspector General
                                                              1501 Farm Credit Drive
                                                              McLean, Virginia 22102-5090




March 17, 2010



The Honorable Ray LaHood
Secretary of Transportation
1200 New Jersey Avenue, SE
Washington, D.C. 20590

Re:        The National Railroad Passenger Corporation (Corporation or Amtrak) and its Office of
           Inspector General

Dear Secretary LaHood:

The Chairperson of the Council of the Inspectors General on Integrity and Efficiency (CIGIE),
Phyllis K. Fong, advised you in a January 8, 2010 letter that I would be conducting the first
review described below as required by the Consolidated Appropriations Act of 2010, signed by
the President on December 16, 2009 (Appropriations Act). 1

The Appropriations Act, under Operating Grants to the National Railroad Passenger
Corporation, provides, in part, that:

      …To enable the Secretary of Transportation to make quarterly grants to the National
      Railroad Passenger Corporation for the operation of intercity passenger rail, as
      authorized by section 101 of the Passenger Rail Investment and Improvement Act of
      2008 (division B of Public Law 110-432), $563,000,000, to remain available until
      expended: Provided, That the Secretary shall not make the grants for the third and fourth
      quarter of the fiscal year available to the Corporation until an Inspector General who is a
      member of the Council of the Inspectors General on Integrity and Efficiency determines
      that the Corporation and the Corporation’s Inspector General have agreed upon a set of
      policies and procedures for interacting with each other that are consistent with the letter
      and the spirit of the Inspector General Act of 1978, as amended...

The Appropriations Act further provides that 1 year after this determination the CIGIE shall
appoint another member to evaluate the then operational independence of the Amtrak Inspector
General (IG).


1
    Pub. L. No. 111-117(2009)
                                                   Conclusion

Based on my evaluation of the policies and procedures required by the Appropriations Act and
other due diligence described in this report, it is my determination that the Corporation and the
IG have agreed to a set of policies and procedures for interacting with each other that are
consistent with the letter and the spirit of the Inspector General Act of 1978, as amended (IG
Act).

As a result, they are now positioned to build a constructive relationship that will enable the
Amtrak Office of Inspector General (OIG) to operate unhindered in its role of: 1) promoting
economy, efficiency, and effectiveness, 2) preventing and detecting fraud and abuse, and
3) providing a means for keeping the head of the entity and Congress fully and currently
informed about the problems and deficiencies relating to Amtrak’s programs and operations.

Amtrak will benefit by having a properly functioning OIG that remains independent of
Corporation programmatic activities and, thus, able to provide objective assessments and
recommendations regarding Amtrak operations.

                                                  Background

The Appropriations Act’s requirements resulted from Congressional concern that the OIG’s
independence and ability to effectively oversee the expenditure of funds, including funding
provided by the Federal government, was being undermined by the Corporation.

Congressional focus was heightened in mid-2009 as a result of the IG’s unexpected retirement
on June 18, 2009. The concern was whether his retirement was involuntary and is evidenced
by language in one Congressional letter stating “On June 18, 2009, Mr. Weiderhold entered into
a separation agreement with Amtrak…Amtrak presented the agreement to Mr. Weiderhold on
June 17, 2009, indicating that if he did not sign it by June 19, 2009, the Chairman of the Board
would send a 30-day notice letter to Congress to begin the process of removing him as
Inspector General, as required by the IG Reform Act.” 2

Regarding the overall relationship between the Corporation and the OIG, another Congressional
letter referred to “…longstanding and serious conflicts between Amtrak management and the
Inspector General, and major disputes about the role of the Inspector General within Amtrak.” 3
Another member of Congress indicated he was investigating whether the independence of the
IG had been undermined by Amtrak officials. 4

With the IG’s retirement on June 18, the Corporation appointed a senior member of the
Corporation’s staff as Interim IG. This elicited criticism from members of Congress, charging
that the appointment of a Corporation official as Interim IG “…undermines the statutory



2
  July 30, 2009 letter from Charles Grassley, Ranking Member, U.S. Senate’s Committee on Finance, and Darrell
Issa, Ranking Member, U.S. House of Representatives’ Committee on Oversight and Government Reform, to The
Honorable Jeffery Zients, Executive Chairperson, Council of the Inspectors General on Integrity and Efficiency, and
Deputy Director for Management, Office of Management and Budget
3
  July 28, 2009 letter from Chairman Edolphus Towns and Ranking Member Darrell Issa of the U.S. House of
Representatives’ Committee on Oversight and Government Reform to Amtrak Board Chairperson Thomas Carper
4
  June 25, 2009 press release from Senator Charles Grassley

                                                         2
independence of the Office of Inspector General.” 5 The Corporation’s Chairman responded in a
letter that the Interim IG’s appointment was based in large part on “…her [Interim IG] clear
understanding of the role of the Inspector General, her unquestionable integrity, and the short
period of time for which she would serve.” 6 The Chairman further stated in the letter that “The
Board is committed to having an Office of Inspector General (OIG) that operates under best
practices consistent with the Inspector General Act.” The Interim IG remained in place until the
current IG was hired effective November 16, 2009.

It was this environment of adversity between the Corporation and its OIG that elicited the
concern and involvement of Congress, and resulted in this review, as required by the
Appropriations Act.

                                             Methodology

In conducting this review, I obtained and evaluated various historical documents related to the
past issues between the Corporation and the OIG; conducted numerous interviews with
Corporation officials, the current IG, and other OIG personnel; and evaluated the policies and
procedures, as required by the Appropriations Act, that will serve as guidelines for interaction
between Corporation officials and OIG personnel.

Of course, notwithstanding written guidelines developed between the Corporation and the OIG
regarding their relationship, the IG Act is the definitive word regarding the role and authorities of
an Inspector General established by the statute.

My interaction with Corporation officials in conducting this determination involved: 1) attending
the January 2010 monthly meeting between the Amtrak Board of Directors (Board) and the
current IG; 2) meeting separately with the Board at its January 2010 meeting; 3) interviewing the
Board’s Chairman and all members of Amtrak’s Executive Committee, comprised of the senior
leadership of the Corporation, including the President and Chief Executive Officer (CEO) and
the Chief Operating Officer; and 4) interviewing the current IG and his senior officials. I also
interviewed the Department of Transportation’s (DOT) Inspector General and his General
Counsel. This interface resulted in a total of 17 interviews conducted at Amtrak and at the
DOT’s Office of Inspector General during the period January 13 – March 16, 2010.

Even though I reviewed historical documents related to the issues between the Corporation and
the OIG, I focused my attention on two areas. First, I considered what Corporation and OIG
officials said during the interviews regarding their current relationship and developed a
perception as to their commitment regarding the working relationship they want going forward.
Second, I assessed the policies and procedures agreed to by the Corporation and the OIG for
interacting with each other that are consistent with the letter and the spirit of the IG Act.

                                                Findings

Interviews

Throughout the interviews with Corporation officials there was consistency regarding the
adversity that had existed between the OIG and Corporation. Corporation officials expressed
their perspective that the OIG was not always conducting audits/inspections and investigations

5
  July 28, 2009 letter from Chairman Edolphus Towns and Ranking Member Darrell Issa of the U.S. House of
Representatives’ Committee on Oversight and Government Reform to Amtrak Board Chairperson Thomas Carper
6
  July 31, 2009 letter from Chairman Thomas Carper to Chairman Edolphus Towns and Ranking Member Darrell
Issa of the U.S. House of Representatives’ Committee on Oversight and Government Reform

                                                    3
timely and with transparency, handling Corporation documents appropriately, and affording
management opportunity to comment on OIG reports of Corporation processes and
performance. OIG officials expressed in their view that the Corporation had hindered the
independence and effectiveness of OIG operations by delaying and filtering access to
information and Amtrak personnel, unnecessarily requiring redacting of OIG reports before
being made available to the public, and being untimely in responding to findings, conclusions,
and recommendations in OIG reports.

There was also consistency in what Amtrak officials said regarding the relationship between the
current IG and the Corporation. They indicated the IG’s approach to managing OIG operations
and interacting with Corporation officials has built an initial positive relationship.

Similarly, the IG has indicated Corporation personnel have been providing excellent cooperation
in his efforts to understand past relationship issues, learn about Amtrak’s culture and
operations, and build a format for establishing a constructive relationship between the OIG and
the Corporation.

This is a new relationship and one that will likely be tested over time, as are virtually all
relationships between departments and agencies and their Inspectors General. Nevertheless, it
seems that all parties are well aware of their respective responsibilities in building and
maintaining an environment in which an ongoing positive relationship between the Corporation
and the OIG can exist.

Policies and Procedures

The policies and procedures developed by the Corporation and the IG for interacting with each
other were provided to me for review on March 2, 2010.

After review of the policies and procedures, I concluded that they are consistent with the letter
and the spirit of the IG Act. The IG’s independence and ability to oversee Amtrak’s operations
and expenditure of funds, including funding provided by the Federal government, are properly
addressed.

There are a number of features of the policies and procedures that speak to the independence
and oversight capabilities of the IG, and the past issues between the Corporation and the IG. A
few of these are as follows:

   1. The document constituting the policies and procedures is signed by the Chairman, the
      head of the entity. This provides the necessary import to the message and guidelines
      contained in the document.
   2. The Responsibility section of the document specifies that “The head of Amtrak and the
      Amtrak Inspector General (“Inspector General”) are responsible for the interpretation and
      administration of this policy.” This properly places the responsibility at the highest levels
      for the successful implementation of the policies and procedures.
   3. The document reiterates the IG Act’s provision that a designated Federal entity’s (DFE)
      IG, in this case Amtrak, is under the general supervision of the head of the DFE and that
      the IG is not subject to supervision by any other officer or employee of the DFE. (IG Act,
      section 8G(d)) This emphasizes the IG’s independence.
   4. The document reiterates the IG Act’s provision that no one in a host establishment or
      DFE may “…prevent or prohibit the Inspector General from initiating, carrying out, or
      completing any audit or investigation, or from issuing any subpoena during the course of



                                                 4
        any audit or investigation.” (IG Act, section 8G(d)) This again emphasizes the IG’s
        independence.
   5.   The document provides for, as does the IG Act, full and unimpeded access to all
        information at Amtrak. (IG Act, section 6(a)(1)) This, along with the reiteration of the IG
        Act in 3 & 4 above, serves to ensure that all Amtrak employees, particularly those not
        familiar with the IG Act, are informed of these essential provisions of the IG Act.
   6.   The OIG’s handling of confidential, sensitive, or privileged Amtrak information obtained
        in connection with OIG review activities has been effectively dealt with in the document.
        The document provides for a process of internal discussion between the IG and
        management regarding the public release of such information, but with Amtrak’s
        acknowledgement of the IG’s final authority to decide whether such information should
        be released in a public report.
   7.   The document sets forth a number of general principles to guide the relationship
        between the Corporation and the IG. These address the Chairman’s and Board’s
        expectations of all staff regarding matters such as professionalism and mutual respect,
        open communication, objectivity and fairness, and the need for the OIG to respect and
        properly protect Amtrak information. All Amtrak personnel should benefit from the
        Chairman setting forth his and the Board’s expectations in these areas.
   8.   The document establishes an Audit Liaison position to facilitate and coordinate the OIG’s
        access and activities within the Corporation. This has the potential to provide an
        effective bridge between the OIG and the Corporation, and to significantly enhance the
        Corporation’s effective and timely response to OIG products.

In summary, the document reiterates the role and authorities of the IG as delineated in the IG
Act, and sets forth Amtrak leadership’s expectations for all Corporation employees in
establishing and maintaining an environment within which the OIG can maximize its
effectiveness and contributions to the Corporation’s operations and performance.

However, as also set forth in the document, it will be incumbent on the Chairman and the IG to
ensure that all Amtrak employees adhere to all provisions of the policies and procedures.

                                     Corporate Governance

Critical to building and maintaining an environment in which a continuing constructive
relationship between the Corporation and the OIG can exist are the Chairman and the Board
setting: 1) clear expectations for interaction between all Amtrak employees and the OIG, and 2)
the proper leadership tone regarding this interaction. These two elements of leadership need to
be established by the Chairman, who is the head of the entity, and the Board. The President
and CEO, as the day-to-day manager of the Corporation, must play a vital role in the effective
implementation of the expectations and leadership tone. During my discussions with the
Chairman, the Board, and the President and CEO, each seemed to have a full appreciation for
the leadership now required to create and maintain the proper relationship between the
Corporation and its IG.

The Chairman also has a full appreciation that, regardless of what the policies and procedures
prescribe regarding the relationship between the Corporation and the OIG, effective ongoing
implementation of the policies and procedures will be the key. This was evidenced by a
comment the Chairman made to me stating, in effect, that written guidelines and good intentions
are important, but actions will ultimately be the determining factor in creating a healthy and
viable relationship between the parties.



                                                 5
                                    Concluding Remarks

I wish to thank the Chairman, the Board, the members of the Executive Committee, and the IG
and his staff for the many courtesies extended to me as I conducted this evaluation. All
personnel with whom I came into contact were most helpful.

If you have any questions, please call me at (703) 883-4030 or 4241. I would be pleased to
discuss this report with you.

Sincerely,




Carl A. Clinefelter
Inspector General
Farm Credit Administration
Vice Chairperson
Council of the Inspectors General on Integrity and Efficiency




                                                6
